Supreme Court, U.S.
FILED

JUL 1 6 2020
OFFICE OF THE CLERK

3fn tfje Supreme Court of tfjc fHntteb States
Dr. Rebecca H. Gallogly, Petitioner
v.
Attorney General of The United States of America; United States
Attorney’s Office, Western District of Texas; United States
Department of Housing and Urban Development; United States
Environmental Protection Agency; The State of Texas; Travis
County Criminal Court; The City of Austin; Capital Area Private
Defender Service; 2013 Travis Oak Creek L.P.; Eureka Multifamily
Group; Dominium Apartments; Attorney Michael Burke; Travis
County District Attorney’s Office

On Petitionfor Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI
Dr. Rebecca H. Gallogly
2301 Durwood Street, Suite 3408
Austin, TX 78704
(512) 663-4396
b3ccahunt@gmail.com
Non-Attorney Pro Se Indigent Litigant and Petitioner

n in n n

^ pi
1 1

■1

f -*\y

VHn cl L

Questions Presented
1. Is it a Constitutional deprivation to put a person found not guilty on community
supervision or probation for the charge! or, to permit states to abrogate
expungement for served or dismissed community supervision or probation terms?
2.

If agencies fail to regulate and enforce pervasive safety, peace, privacy, and

accessibility issues at multifamily residential properties, are they responsible for
Constitutional property, domestic tranquility, implied, and liberty deprivations?
3.

Is it a Fifth Amendment deprivation (a) to deny counsel to an indigent in a

complex civil case for which there is no other reasonable remedy available! or (b) to
deny a non-attorney indigent litigant liberal treatment?

i

List of All Proceedings Directly Related
•

Texas v. Gallogly, No. Ol-CR-15-211649, Travis County Criminal Court,
Judgment entered January 20, 2017.

•

Gallogly v. U.S., et al, No. A18CV0571-RP-ML, U.S. District Court for the
Western District of Texas. Judgment entered December 21, 2018.

•

Gallogly v. U.S., et al., No. 19-50044, U.S. Court of Appeals for the Fifth
Circuit. Judgment entered March 2, 2020.

ii

Table of Contents
Page
Questions Presented

i

List of All Proceedings Directly Related

ii

Appendix Table of Contents

v

Table of Authorities

vi

Introduction

1

Opinions Below

1

Jurisdiction

2

Constitutional and Statutory Provisions Involved

2

Statement

4

I.

Expungement and the "Not Guilty" Probationary Term

6

II.

Severe and Pervasive Housing Rights Deprivations

7

III.

Pervasive Process Abuse in Courts Below

Reasons for Granting the Writ.

10
13

I.

A Federal Expungement Requirement is Necessary

14

II.

Heightened Housing Regulation is Necessary

15

III.

Reform for Indigents and Non-Attorney Litigants is Paramount

21

A.

Gallogly Had a Right to Appointed Counsel

21

B.

Gallogly Had a Right to Liberal Treatment

26

1.

Gallogly Had a Right to Be Heard on Pleadings

27

2.

Gallogly Deserved to Have Notice Provided to Defendants

28

3.

Gallogly Had a Right to Present Evidence Supporting Her Case

30

iii

4.

Gallogly Had a Right to Reasons for Record Decisions

31

5.

Gallogly Had a Right to Other Liberal Substantive Due Process

36

40

Conclusion

iv

Appendix Table of Contents
Page
Appendix A: Fifth Circuit Unpublished Affirmance of Lower Court Dismissal
Without Articulated Opinion, Following Procedurally Sufficient Brief
Filing, Docketed December 12, 2019....................................................................

la

Appendix B: Fifth Circuit Order Denying Rehearing Petition Without
Articulated Opinion, Following Procedurally Sufficient Rehearing
Petition Filing, Docketed February 21, 2020.......................................

3a

Appendix U Fifth Circuit Affirmance Judgment, Docketed March 3, 2020......

5a

Appendix D: Gallogly's Notice of Indirect Appeal, Which a Fifth Circuit Clerk
Refused to Docket, Filed May 1, 2020..................................................................

7a

Appendix E: Gallogly's Motion to Reconsider Court Inaction, Which a Fifth
Circuit Clerk Refused to Docket, Filed May 8, 2020.....................................

22a

Appendix F: Western District of Texas Magistrate Judge Report Assessing
the Viability of Complaint Claims, Denying Counsel Appointment, and
Recommending Case Dismissal, dated November 19, 2018 ......................

27a

Appendix G: Western District of Texas District Judge's Order Adopting
Recommendations of Magistrate Judge Without Opinion to Gallogly's
Timely Objections, dated December 21, 2018............................................

57a

Appendix H: Western District of Texas District Judge's Rendering
Dispositive Judgment of Dismissal, dated December 21, 2018...

59a

Appendix L Western District of Texas District Judge's Blanket Denial of
Any Process for Gallogly's Case in the District Court, dated
September 27, 2019 .........................................................................................

61a

Table of Authorities
Page(s)
Cases
Caperton v. A. T. Massey Coal Co., 556 U.S. 868

33

Caston v. Sears, Roebuck & Co., 556 F.2d 1305, 1310 (5th Cir. 1977)

33

Coleman v. Lincoln Parish Det. Ctr., 858 F.3d 307, 309 (5th Cir. 2017)

26

Cupit v. Jones, 835 F.2d 82, 86 (5th Cir. 1987)

12, 33

Evancho v. Fisher, 423 F.3d 347 (2005)

27

Goldberg v. Kelly, 397 U.S. 254 (1970)

31

Greene v. McElroy, 360 U.S. 474 (1959)

25

Haines v. Kerner, 404 U.S. 519, 520-21 (1972)

26, 35

Lassiter v. Department ofSocial Services, 452 U.S. 18 (1981)

22

Mathews v. Eldridge, 424 U.S. 319 (1976)

22

Miller v. Redwood Toxicology, 688 F.3d 928 (2012).....................

27

Montville v. Woodmont, 244 Fed. Appx. 514, 517 (3d Cir. 2007)

27, 35
23

Powell v. Alabama, 287 US 45 (1932)
Turner v. Rogers, 564 U.S. 431 (2011)

22, 24

Ulmer v. Chancellor, 691 F.2d 209, 213 (5th Cir. 1982)

12, 22

Statutes
3, 34

28 U.S.C. § 1331

3, 21, 25

28 U.S.C. § 1915(e)(1)

2, 13

28 U.S.C. § 2101(c)

3, 22, 29

42 U.S.C. § 1983
vi

Other Authorities
Bradlow, Julie M., Procedural Due Process Rights ofPro Se Civil Litigants,
University of Chicago Law Review, 55 (1988)

21

Kathryn Burke, et al., Application ofInternational Human Rights Law in State and
Federal Courts, 18 Tex. Int'l L. J. 291 (1983)

29

Legal Information Institute of Cornell Law School, PROCEDURAL DUE
PROCESS^ CIVIL, U.S. Constitution webpage (2020)

22

Rules
5TH CIR. R. 47.6

31, 32, 36

Federal Rule of Appelate Procedure 3(a)(1)

13

Federal Rule of Appellate Procedure 2

40

Federal Rule of Appellate Procedure 3(d)

28

Federal Rule of Civil Procedure 56

26
7

Travis County Expungement Prohibition
Constitutional Provisions
Fifth Amendment

i, 3, 4, 14, 25, 26, 28, 33, 38, 39

Fourth Amendment

3, 5,7

Ninth Amendment

4, 35

Preamble

4, 9, 15, 19

Sixth Amendment

4, 5, 11, 14

Customs
The United Nations' Declaration of Human Rights

vii

14, 34, 35

)

Introduction
Petitioner Rebecca Gallogly respectfully requests the Court to issue a writ of
certiorari, to review the orders and judgments of courts below. This petition is
presented because, among other things, the Fifth Circuit sanctioned The Western
District of Texas' far departure from accepted, usual, and any rational or reasonable
course of judicial proceedings, so as to call for an exercise of the power of this Court.
Gallogly has liberty limitations and meets precedential standards for counsel
appointment, yet has been denied it eight times from courts below. There is no
reasonable articulation for most orders. Opinions promulgated in district court by
the magistrate judge were overwhelmingly erroneous and contained affronts to
Gallogly's dignity, courtliness, sex, and non-attorney status. The Fifth Circuit failed
to opine on Gallogly's last pleading for counsel appointment, and denied both her
appellant brief and timely rehearing petition without opinion. In affirmance of the
lower court’s dismissal, the Fifth Circuit remained silent despite lower court error,
violating its local rule for opinions. Gallogly and her case remain lacking in repose
due to due process deprivations for issues possessing widespread nationwide import,
and critical to law enforcement and government agencies. Gallogly’s case merits
review to afford her fundamental due process; to cure nationwide defects, and to
avert manifest injustice.

Opinions Below
The opinion of the Fifth Circuit went unpublished and was deemed nonprecedential except under the limited circumstances under the doctrine of res

1

judicata, collateral estoppel, or law of the case, or similarly to show double jeopardy,
notice, sanctionable conduct, entitlement to attorney's fees, or the like. Matters of
res judicata, collateral estoppel, and law of the case are at issue because the case
has not yet been heard as a result of both lower courts' serious and pervasive
sanctionable conduct.
Opinions below are in The United States Court of Appeals for the Fifth Circuit,
Case No. 19-50044, (App. la-6a) and The Western District of Texas, Case No.
A18CV0571—RP'ML,

(App.

27a-62a).

It

is

Gallogly's

limited,

non-attorney

understanding that the district court opinion is unpublished. Both circuit court
affirmances following sufficient brief and sufficient petition for panel rehearing,
respectively, were unpublished.

Jurisdiction
The Fifth Circuit entered its judgment on December 11, 2019. The court denied
a timely rehearing petition on February 21, 2020. On March, 19, 2020, The
Supreme Court of the United States submitted a COVID-19 order extending the
deadline to file any petition for a writ of certiorari to 150 days from the date of the
order denying a timely petition for rehearing, establishing July 20, 2020 as the
deadline for this petition. This Court has jurisdiction under 28 U.S.C. § 1254(1).
Constitutional and Statutory Provisions Involved
28 U.S.C. § 2101(c) provides in relevant part:
Any other appeal or any writ of certiorari intended to bring any judgment or
decree in a civil action, suit or proceeding before the Supreme Court for review

2

shall be taken or applied for within ninety days after the entry of such judgment
or decree.
28 U.S.C. § 1331 provides: The district courts shall have original jurisdiction of
all civil actions arising under the Constitution, laws, or treaties of the United
States.
28 U.S.C. § 1915(e)(1) provides: The court may request an attorney to represent
any person unable to afford counsel.
42 U.S.C. § 1983 provides:
Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District of Columbia, subjects, or causes
to be subjected, any citizen of the United States or other person within the
jurisdiction thereof to the deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper proceeding for redress, except that
in any action brought against a judicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief was unavailable. For the
purposes of this section, any Act of Congress applicable exclusively to the
District of Columbia shall be considered to be a statute of the District of
Columbia.
The Fourth Amendment to the United States Constitution provides in relevant
part:
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no warrants
shall issue, but upon probable cause.
The Fifth Amendment to the United States Constitution states in relevant part:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury...nor be deprived of life,
liberty, or property, without due process of law! nor shall private property be
taken for public use, without just compensation.

3

)

The Sixth Amendment to the United States Constitution provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime
shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the Assistance of
Counsel for his defence.
The Ninth Amendment to the United States Constitution provides: The
enumeration in the Constitution, of certain rights, shall not be construed to deny or
disparage others retained by the people.
The Preamble to the United States Constitution provides:
We the People of the United States, in Order to form a more perfect Union,
establish Justice, insure domestic Tranquility, provide for the common defense,
promote the general Welfare, and secure the Blessings of Liberty to ourselves
and our Posterity, do ordain and establish this Constitution for the United
States of America.

Statement
In 2015 and 2016, Gallogly's Fourth Amendment rights and virtually all of her
Sixth Amendment rights were violated during court proceedings in Travis County
Criminal Court. The proceedings involved her illegal arrest for criminal trespass, a
Class A Misdemeanor, while she was peaceably attempting make an appointment in
the Office of the President at The University of Texas at Austin (“UT-Austin”).
Gallogly's goals in establishing an appointment with the President of UT-Austin
included: l) to seek redress for her Fifth Amendment violation and sex
discrimination complaints in science and academia, having formerly worked and
received education as a postdoctoral fellow there; and 2) to advocate for placement
of a postdoctoral office there, commensurate with University of Texas System
4

recommendations. During the last three months of the criminal trespass
proceedings, Gallogly was semi-homeless due to work limitations imposed by UTAustin's pervasive violations of her rights. At the onset of Gallogly's homelessness,
she applied for subsidized housing at Lucero Apartments in Austin, Texas.
Violation of Gallogly’s Sixth Amendment rights in criminal court - including but
not limited to ineffective assistance of counsel -- oddly dovetailed with poorly timed
illegal actions from Eureka Multifamily, then the company managing Lucero
Apartments. Due to the confluence of these illegal pressures from Travis County
Criminal Court and Eureka Multifamily, Gallogly was forced to choose between a
plea bargain with probation, or loss of her recently approved subsidized unit at
Lucero Apartments. Thus, despite her innocence and that her arrest at UT-Austin
was a federal crime under color of law, Gallogly was coerced into probation as stated
on record during the criminal proceedings in Travis County Criminal Court on July
20, 2016. Strangely, the judge stated on record that she found Gallogly not guilty.
and then issued Gallogly community supervision immediately thereafter for the
charge. Because probationary terms are not expungable in Texas. The probationary
term resulted in exacerbated work limitations for Gallogly. Lack of a federal
expungement provision for a served term from public record is a violation of
Gallogly's Fourth, Fifth, and Sixth Amendment rights. As such, it is a blight for
both Gallogly specifically, and for the nation's constituents at large, constituting the
first prong for the widespread societal import of this petition.

5

Gallogly filed her complaint for this suit in district court on July 9, 2018 because
her work liberties were severely restricted and her property rights were recurrently
violated, causing her extreme, chronic stress that adversely affected her health.
Since then, Gallogly continues to experience severe and pervasive property rights
violations at her residential multifamily property subsidized by The Department of
Housing and Urban Development ("HUD"), serving as a second prong for
widespread societal and government agency significance. Finally, in attempting to
seek relief in federal court for the aforementioned violations, Gallogly has suffered
severe and pervasive abuse of process from courts below, serving as the third prong
for widespread societal and government significance for this petition.
I.

Expungement and the "Not Guilty" Probationary Term
Federal statute is silent about Gallogly's ineligibility for expungement of her not

guilty probationary term from public record, which is viewable yet does not say
anything about the judge’s not guilty ruling in a background check. Gallogly is only
permitted to pursue an order of nondisclosure. Gallogly’s training is in psychology
Clinical employers in her field can view her probationary term during a background
check. Franchises working with vulnerable populations are permitted view of
nondisclosed records in Texas. Gallogly already experienced at least one known hire
failure due to the probationary term on her record. Thus, Gallogly’s seizure and
work liberties are limited, seemingly in perpetuity by, among other things, the
convergence of two main factors. Specifically, Gallogly's work liberties are almost
completely limited by both the pervasive illegal actions against her as a woman in

6

science and academia addressed in a separate suit in The United States Court of
Federal Claims, Case No. 20cv-261C; and, then further by her probationary record
in this case, which is currently viewable by the public in perpetuity, by law;
According to Texas law, you do NOT qualify for an expunction if ...[y]ou were
placed on PROBATION, COMMUNITY SUPERVISION, or DEFERRED
ADJUDICATION for any felony or Class A or B misdemeanor you want
expunged, even if vour case was later dismissed (Class C deferred adjudication
is the only exception). httpsV/www.traviscountytx.gov/district-clerk/expunctionexpo (2020). (Emphasis added).
In addition to work liberty limitations, which possess unreasonable seizure
elements, Gallogly believes the lack of expungement provision for her illegal, not
guilty, dismissed charge confers violations of Gallogly's Fourth Amendment right to
freedom from search without cause. Specifically, Gallogly has reason to believe
based on many of her day-to-day experiences, that she is subject to heightened
monitoring by various methods from law enforcement and / or investigative bodies,
pursuant to customs to which she is not entirely privy as to their nature.
II.

Severe

and

Pervasive Housing Rights Deprivations

Gallogly’s housing rights violations at Lucero Apartments were and are
significant

and pervasive,

and persist to

date.

Gallogly has experienced

overwhelming financial stress due to landlord abuse, with impinged coercion into a
criminal record and illegal taking of 60-70% of her income for rent! and,
overwhelming paperwork burden due to outdated HUD regulations for extremely
low income residents, among other things. Gallogly experienced and continues to
experience persistent harassment by management, including but not limited to
excessive and illegal paperwork demands! threats to ongoing property occupancy!
7

complex-wide water bill harassment; inspections and last-minute demands for
apartment entry requiring cleaning on weekends and / or holidays; persistent
landlord intimidation, about which to Gallogly's knowledge HUD remains silent in
its regulation; and regular entrapment attempts into leasing office violations.
Leasing violations can lead to eviction. Such occurrences inferring potential threat
of eviction by both action and signage are periodic and regular.
There is regular performance of unnecessary work on the property, which
creates unnecessary noise, machinery exhaust, and revolving "rando" personnel
intrusions. The 104 dB alarm in the bedroom / office of apartments is periodically
triggered without warning. Many of these problems are owed to excessive changes
in management companies and / or personnel, combined with understaffing, and a
resulting lack of continuity of awareness of property issues among staff. Gallogly
suspects the pervasive violations are intentional, but without appointed counsel,
does not know how to investigate or articulate the matter. The inability to escape
daily stressors where Gallogly lives is a violation of her domestic tranquility and
welfare. Property personnel refuse to seek property tax exemptions, despite
Gallogly having suggested it. Property taxes are now hovering at about $0.5M a
year. Even half of that money could be used for shoring up property deficiencies,
including adequate staffing and hard infrastructure violation remedies.
These property violations and problems interweave with poor Environmental
Protection Agency (EPA) regulation and / or enforcement, and inadequate waste
management policies from the City of Austin. Trash and recycling must be

8

contracted privately for multifamily properties in Austin, Texas, rather than
through the City of Austin. Trash and recycling regularly overflow. Due to a lack of
federal requirements for appropriate recycling protocols, residents fill the recycling
dumpsters with trash.
Due

to

declining-to-absent apartment-wide

maintenance

scheduling and

monitoring, combined with absent EPA regulation for landscape machinery noise
and emissions, the concrete echo chamber complex continues to be regularly rife
with

mechanical

noise

Thanksgiving weekend

and

unreasonably

2019,

through to

noxious
date.

exhaust,

These

even

during

EPA concerns

are

Constitutional violations of Gallogly's and other multifamily residents' domestic
tranquility and welfare pursuant to the Preamble.
The hard infrastructure of Lucero Apartments is severely lacking due to HUD's
silence in a number of areas, including failures to- consider neighborhood building
in situ; require building codes that limit noise reverberation throughout the
complex; regulate placement of recreational facilities outside of echo corridors that
directly impinge upon residential properties; and, require the highest international
floor insulation standard for multifamily properties.

Disagreements among

residents due to floor reverberations abound. Gallogly was incessantly tormented
for at least two years from noise above her in the middle of the night, contributing
to chronic stress and sleep deprivation.
An attempt by the Lucero owner or management to increase security by
installing gates since Gallogly filed suit, and which Gallogly wanted, was an abject

9

failure, and has increased in number the disability violations around the property.
Some unnecessary gates were installed adjacent to residential units housing people
with major physical disabilities. The gates are not maintained and break regularly,
despite being less than two years old. The gates are not easily opened by a person
with extreme motor disabilities, due to their weight. An installed gate at the surface
parking lot possesses a raised rather than a recessed track, making traversing over
the track with wheelchairs and strollers difficult. Combined with the adjacent
heavy and broken gate for foot traffic, the complex feels like a haunted obstacle
course. Sloped curb cutouts from all exits to streets are absent. The public sidewalk
adjoining a main entrance on Wilson Street remains in disrepair and difficult or
impossible to traverse with a wheelchair, apparently since before construction in
2015. Elevators break regularly and often go for months without being fixed. The
complex is six floors high and possesses 173 units, with many disabled residents,
making working elevators imperative. Gallogly assisted a woman with a walker
with her groceries, as she precariously climbed stairs when elevators were broken.
III.

Pervasive Process Abuse

in

Courts Below

In July 2018, Gallogly filed her complaint in district court. On November 19,
2018, Magistrate Judge Mark Lane ruled on all motions except that to electronically
file (App. 55a). Lane recommended dismissal in his Report and Recommendation,
raising several erroneous arguments about Gallogly not making viable claims (App.
27a-56a). Lane denied Gallogly counsel appointment on the basis that she “...has
shown herself able to sufficiently articulate her claims and represent herself in this

10

lawsuit.” (App. 53a). Galloglv remains unanswered bv both courts as to how she can
fail to make viable claims vet be sufficiently articulate to represent herself.
Gallogly submitted timely objections to Lane’s report. (ROA.274-303). On
December 21, 2018, District Judge Robert Pitman submitted an order claiming de
novo review of Lane's report. (App. 57a-58a). Pitman failed to articulate anything
specific about his de novo review of Lane's report. Pitman also failed to issue any
articulation or opinion on any of Gallogly’s new objections, thereby failing to opine
on her Sixth Amendment argument (App. 21a-22a). Pitman adopted Lane’s
recommendations and dismissed the case. (App. 59a-60a).
On January 15, 2019, Gallogly submitted a notice of appeal to the Fifth Circuit.
On February 26, 2019, Gallogly submitted a Motion to Appoint Counsel to the Fifth
Circuit, asking for counsel appointment to write her opening brief. On March 8
2019, a Fifth Circuit clerk stated Gallogly’s motion to appoint counsel would await
appellant briefing, thereby requiring Gallogly to submit her own appellant brief, in
opposition of her motion to appoint counsel specifically for the purpose of briefing.
On April 12, 2019, Gallogly sent the Fifth Circuit a motion to modify its action to
hold off on submitting her motion to appoint counsel for review by a judge until
after briefing. On April 15, 2019, the Clerk of Court suspended Gallogly’s appeal
schedule due to her “re-urged request for appointment of counsel,” and told Galloglv
bv nhone her motion would be reviewed bv a judge.
On May 14, 2019 and in opposition to what Gallogly was told by a previous clerk
by phone, Deputy Clerk Michael Schneider (not a judge) denied Gallogly counsel

11

appointment, stating there is no general right to counsel in civil actions, citing
Cupit v. Jones, 835 F.2d 82, 86 (5th Cir. 1987) and Ulmer v. Chancellor, 691 F.2d
209, 213 (5th Cir. 1982). Scheider stated Gallogly's claims were meritless without
articulation. On May 30, 2019, Gallogly submitted a reasonable and cogent motion
to

reconsider

counsel

appointment

denial based

on precedential

counsel

appointment criteria. (5TH CIR. Dct. 00514977054). On June 18, 2019, Judge
James Dennis denied Gallogly’s counsel request without articulating any opinion
for her new counsel appointment arguments.
On June 24, 2019, Gallogly submitted her opening brief. Pitman rejected
Gallogly’s district motion to electronically file in the district court shortly thereafter.
Despite being cogent and properly formatted, Gallogly's first brief was found
“deficient”. Her brief revisions were found “deficient” four times, due to overly
proscribing

technicalities,

constituting

Orwellian

psychological

abuse

and

discrimination based on education level and computer literacy. On August 12, 2019,
Gallogly’s fifth brief revision was accepted. More abuse of process ensued from the
Fifth Circuit toward Gallogly, until Gallogly’s receipt of the Fifth Circuit’s
affirmance of the district court’s dismissal on December 11, 2019 with no
articulated opinion. The decision was issued on the same day at a time after
Gallogly communicated with a confidant via cellular text that she was traveling out
of state for vacation, thereby eusuring almost a week of down time during her 45day allotment to prepare her petition for panel rehearing as a non-attorney. That
same day, counsel appointment request with her brief was denied without opinion.

12

Thereafter, Gallogly timely filed a Notice of Indirect Appeal to this Court (App.
8a-21a) for review of the Fifth Circuit's opinions and, therefore also for indirect review of the
lowest court's opinions pursuant to 28 U.S.C. § 2101(c). In so doing, Gallogly followed
the general lower-higher court procedure, given appellate rules do not expressly
elucidate procedure for this type of appeal. Specifically, Gallogly followed Federal
Rule of Appelate Procedure 3(a)(1): "An appeal permitted by law as of right from a
district court to a court of appeals may be taken only by filing a notice of appeal
with the district clerk..."
Specifically, whereas the district court is the lower court for this rule, and the
circuit court is the higher court, Gallogly followed this procedure in substituing the
lower and higher courts with the Fifth Circuit and this Court respectively, thereby
filing Notice of Indirect Anneal to the higher Supreme Court in the lower, circuit
court.
A Fifth Circuit clerk refused to docket the Notice of Indirect Appeal. (5th CIR.
Dkt.05-01-2020, Dkt. Summary). Gallogly submitted a Motion to Reconsider the
clerk's refusal (App. 22a-26a), with the intent that the motion be reviewed by a
judge. The Fifth Circuit clerk refused to docket Gallogly's subsequent Motion to
Reconsider. (5th CIR. Dct. 00515413188). The case currently stands as dismissed
without opinion in and from the Fifth Circuit.

Reasons for Granting the Writ
Gallogly remains pervasively deprived of due process in the courts below for this
case. Gallogly needs her due process rights upheld. It is important for the sake of

13

the nation as well as Gallogly, conferring widespread implications for criminal
justice rights, housing and safety rights, and equal protection under the law for
indigent and non-attorney litigants.
I.

A Federal Expungement Requirement

is

Necessary

Gallogly seeks relief in this case in the form of the Court's declaration on records
expungement federal statutory reform, for the betterment of society. Texas' failure
to provide for expungement of records from view by any person not acting in an
official judicial or law enforcement capacity for viewing purposes once the term is
served or dismissed, is a violation of Gallogly's Fourth and Fifth Amendment rights.
Furthermore, it is an equal protection matter pursuant to The United Nations
Declaration of Human Rights (UNDHR). Specifically, New Jersey permits record
expungement for felonies, misdemeanors, and petty offenses that are not violent or
serious. Misdemeanors are less egregious than felonies, yet more frequently
charged. Society lacks the federal relief of required expungement of such records
from public view and from view of powerful scrutinizers, such as employers and
housing entities, once plea bargain terms are met. It is difficult to imagine lack of
such expungement provisions *not* having pervasive social and economic costs in
the realm of work and housing freedoms.
Gallogly also seeks relief in this case in the realm of declaration of the need for
federal public defense requirements, and declaration of the need for provision of
federal mechanisms of enforcement of Sixth Amendment rights, wherein any court
or litigator pervasively violates them.

14

Finally, Gallogly seeks relief in the form a declaration that Congress must
prevent charges from issuing or appearing on a person's record for a criminal charge
for which the person is found not guilty.
II.

Heightened Housing Regulation

is

Necessary

Every year, Gallogly's required HUD annual recertification process to remain in
her subsidized apartment feels like a difficult and stressful mortgage qualification
procedure, lasting 3-6 months — not to buy a different residence, but simply to stay
in Gallogly's current residence. This is a violation of Gallogly's right to domestic
tranquility and welfare pursuant to the Preamble. Just as a few examples for
Gallogly's 2020 annual recertification difficulties, she was initially told her lease
would not be renewed. She was given 52 pages of paperwork to fill out, many of
which did not apply to her yet incurred for Gallogly a paperwork burden for
assessing their applicability. Some forms constituted privacy intrusions and were
not pursuant to HUD rule. Some papers had expired OMB numbers on them, which
occurred previous years. When this was raised in person with a manager and
Gallogly asserted her right to not fill it out without incurring negative
consequences, she was told she must anyway. HUD needs to update its paperwork
standards to very clearly and expressly only allow HUD paperwork to be filled out
for subsidized housing eligibility.
Most HUD calculations are based on percentages of annual Area Median Income
and therefore inflation. As such, the calculations adjust every year. By contrast, the
cut-off income level at which a resident is not required to report income is an

15

amount rather than a percentage, and appears to have not changed since 2007,
remaining at $5,000.00. Gallogly was not provided the option to not report income
for the first three years of her residence at Lucero, when her income was at or below
$5,000.00. She was only provided this option once her income exceeded the
$5,000.00 threshold. This amount needs to be changed to a percentage backdated to
2007 in the poorest area, updated to reflect current percentage standards given
inflation, and adjusted based on Area Median Income. HUD should require this
form be provided to relevant residents. Residents with extremely low income have
serious stressors, and as such should be exempt from rigorous income assessments
and any rental payments. A standard annual recertification packet needs to be sent
to residents via electronic or postal mail by a federal organization, so that residents
receive all the forms applicable to them, and no more.
HUD annual recertification procedures need to be revamped so that the process
is quick, painless and not requiring weekly, daily, or recurring bursts of time
burdens for months on end.
Relatedly, during previous years Gallogly was given forms regarding her rights
and responsibilities that were generated from a non-profit housing corporation. The
non-profit gave the appearance of legal authority, and provided both legal code and
its own invented code on the same paper, yet represented them as synonymously
valid and applicable. The invented code provided for stressful terms and conditions
above and beyond HUD regulations. HUD needs to update its paperwork standards
to only allow for a restricted set of HUD-approved housing standards in subsidized

16

housing. HUD would do well to develop these for all rental residential properties
nationwide.
HUD standards need to be established for number of entries permitted by
property-related personnel in rental properties, and thorough, comprehensive
timing structures for entry types. Most of Lucero's housing entries are last-minute.
Gallogly has also had periodic signs of intrusions to her property without notice or
permission, when she is not there, such as the turning on of a speaker while she
was away, and the deposit of what appear to be white plastic gloves used for hair
dye in her bathroom drawer. Gallogly had her lock changed once, and intrusion
signs persisted. It is Gallogly's understanding that only maintenance workers have
a copy of her key. Gallogly had similar signs at a previous rental property where she
lived. Some solution needs to be established for providing for safety, security, and
privacy in rental residences. For many reasons, all residential maintenance workers
must be required by HUD to be certified and vetted, or directly supervised by such
at all times.
Gallogly incurred more than an hour-long time burden negotiating her water bill
payment for June 2020, because unlike residents' electric bills, which are
administered through the City of Austin, Lucero periodically changes its water
contracting company, with metering gaps. Currently, water is contracted through a
utility company in California. HUD should require normal and local water and
electric utility contracting that is not tied to the property management company at
rental residences, wherein the resident is responsible for paying for utilities.

17

It appears the Lucero owner may be attempting to shirk its obligations to serve
lowincome residents by violating HUD standards so egregiously as to become
exempt from implementing HUD provisions, thereby putting the units on the free
market and charging almost double the rent, making serious profits. In the past
year, Gallogly's reported one-bedroom unit value from Lucero increased from over
$1,400.00 to over $1,700.00 a month. By contrast, HUD's one-bedroom Fair Market
Rent for the county in which Lucero is situated, is listed at $1,134.00 a month for
Fiscal Year 2020. Such machinations are bad for the country, and psychologically
distressing for low-income residents fearing impending occupancy ineligibility with
nowhere else to go. They are also fraudulent, given municipal funds went toward
building the property with the specific intent of providing low-income housing.
EPA regulation and enforcement are needed for landscape and infrastructure
machinery for noise and exhaust emissions. Whereas this is important for
residential properties, it must be implemented for all properties. If a car can drive
70+ mph without generating noise or noticeable exhaust, then so too must all
landscaping and building repair / maintenance equipment operate with low or no
noise or exahust, both for the health and safety of residents, as well as the workers
operating the machinery. Our capitalist society created a flat-screen television and
then prompted virtually every TV-owning household in the nation to switch to
owning one - when they cost hundreds, if not thousands of dollars. Imbued in this
conversion was the requirement of a transition to high-definition reception, causing
a nationwide switch with a significant financial cost in less than a year. So, too,

18

then, can our society create quiet, lowexhaust / exhaust free landscape and
building construction and maintenance machinery, and require retrofitting (better
for the conservation of resources) or new machinery therefor, in less than a year,
along with readily available enforcement requirements in the event some people fail
to comply. To do otherwise is a violation of our nation's constituents' Constitutional
right to domestic tranquility and general welfare pursuant to the Preamble.
Nationwide standards need to be created and implemented for trash and
recycling for this purpose as well. Urban metropolitan areas with a population at or
greater than an established size need to be required to implement trash and
recycling by the municipality, regardless of residence type. Standards for all
residential properties in terms of frequency and type of trash and recycling pickup,
as well as number of waste receptacles per capita on multifamily properties must be
established, and need to meet the same requirements as the most comprehensive
provision in the city. For example, multifamily properties in the City of Austin
currently must contract with private organizations for trash management.
Standards are often less rigorous or failed more by private organizations. Renters
comprise approximately 55% of the City's constituents, and most of them are in
multifamily housing. As such, multifamily renters do not enjoy the benefits of
periodic bulk pickup as do single family housing residents. Trash and recycling are
often overflowing in some bins on the Lucero property.
Urban areas of a certain size need to have a recycling and waste plan with
minimum standards set by the EPA and enforcement protocols in place in the event

19

those minimum standards are not met. The City of Austin currently has a zero
waste goal for 2040, but the City is notorious for putting plans in place and failing
to implement them (e.g., Shoal Creek Park Master Plan; other park plans;
Code NEXT; McMansion ordinance). Recycling standards must be put in place with
major reform so that cities actually recycle waste, and it does not go the dump.
The EPA needs to craft standards for implementation and enforcement of proper
recycling procedures for all residential types, and mandate that the nation must
comply with implementing fines to residents who fail to comply with recycling
requirements. It is Gallogly's understanding that other countries have implemented
such regulations with great success, providing the EPA sources to model. The EPA
needs to craft standards for minimum numbers of smaller trash and recycling bins
per capita in and around entrances and / or common areas of multifamily
properties, and a requirement for their management per unit time and filling.
The EPA and / or HUD needs to craft minimum standards for fire alarms so that
yearly checks do not contribute to pervasive domestic tranquility violations.
HUD needs to develop building requirements that pave the way for recreational
facilities on properties to be a certain distance from multifamily residential
properties, not allowing for structurally induced noise amplification, and preferably
requiring or encouraging recreational facilities to be installed on the roofs of such
properties, with failsafe safety measures in place. HUD must require the highest
international level of flooring insulation standards to be installed in all new
properties, and retrofitted for all properties wherein there are complaints. For HUD

20

multifamily housing over a certain number of units and / or buildings and / or floors,
HUD must require on-foot, on-site property oversight and security at all times, to
(l) facilitate first-responder access to the premises on an as-needed basis; (2)
coordinate with maintenance and the City for emergency issues such as deployed
fire alarms, water and electricity outages, busted main water pipes, broken
elevators and gates, and biohazards and trash; and (3) handle security issues. HUD
should strongly consider the requirement of a separate security guard and gate at
the entrance to garages of multifamily housing.
In addition, HUD must require HUD multifamily housing to install and
maintain

recessed,

state-of-the-art

hospital-quality,

lightweight,

automatic

disability gating with separate power backups, and attractive fencing that
surrounds the property for the safety of residents, children, pets, and the infirm.
III.

Reform for Indigents and Non-Attorney Litigants is Paramount

Critical to this case is the need for widespread reform for indigent and non­
attorney litigation in civil courts. Bradlow, Julie M., Procedural Due Process Rights
of Pro Se Civil Litigants, University of Chicago Law Review, 55 (1988). Indigents
and non-attorney litigants deserve to have their due process rights upheld the same
as any paying litigant capable of retaining an attorney, period.
A.

Gallogly Had a Right to Appointed Counsel

The matter of appointing counsel to indigents in civil cases is not
straightforward. Congressional statute paves the way for the possibility of counsel
appointment in civil cases by way of 28 U.S.C. § 1915(e)(1), providing courts "may"
21

appoint counsel to any person. Use of the word "may" is ambiguous, connoting
either discretion or permission. In Turner v. Rogers, 564 U.S. 431 (2011) this Court
ruled counsel appointment in civil cases is not required in a straightforward civil
case wherein other state remedies must be in place for relief.
By contrast, counsel appointment in complex civil cases has a long and involved
history with a great deal precedential support with review standards, as argued by
Gallogly in a May 30, 2019 Fifth Circuit docketed pleading that went substantively
unanswered. (5TH CIR. Dct. 00514977054). Cornell Law considers counsel
appointment for indigent litigants in civil cases “far from settled”.

Legal

Information Institute of Cornell Law School, PROCEDURAL DUE PROCESS:
CIVIL, U.S. Constitution webpage (2020). 42 U.S.C. § 1983 cases, of which
Gallogly's is one, are notoriously complex. Lassiter v. Department ofSocial Services,
452 U.S. 18 (1981). Briefly, Gallogly met several criteria for counsel appointment in
civil cases pursuant to Ulmer v. Chancellor, yet was denied it without articulated
opinion.
Two additional precedential elements for counsel appointment in civil indigent
cases warranted indigent counsel appointment for Gallogly: (l) the interests of
private citizens for this case were and are incalcuably strong; and (2) governmental
interests were and are significant. Mathews v. Eldridge, 424 U.S. 319 (1976). High
probability for viable class action — which this case possesses - also begged counsel
appointment, given Gallogly can only represent herself as a non-attorney. In the
absence of both counsel appointment and class action, Gallogly's naivete of

22

courtroom procedure has thus far resulted in manifest injustice. Given the Fifth
Circuit has a pro bono program in place, absent concrete current data aggregation
showing a dearth of pro bono attorneys there, its failure to appoint counsel to
Gallogly was an abuse of process. It was similarly process abuse in the lowest court,
given case complexity.
Moreover, whereas this case is a civil case, it is past time for our country to view
liberties and their limits on a continuim, rather than as a binary variable based on
imprisonment

or

lack

thereof.

When

contrasted

with

fiscal

solvency,

impoverishment certainly limits freedoms and imposes increasing freedom
limitations forward in time. As such, whereas Powell v. Alabama, 287 US 45 (1932)
was intended for criminals alone, its content is readily and equally applicable to
indigent civil litigants almost a century later, especially in complex cases:
Even the intelligent and educated layman has small and sometimes no skill in
the science of law. . . . He lacks both the skill and knowledge adequately to
prepare his...[case], even though he have [sic] a perfect one. He [or she] requires
the guiding hand of counsel at every step in [his or her] proceedings....
(Emphasis added.)
The law is far and away more complicated now than when Powell, v. Alabama
was decided. Gallogly's inadequate legal knowledge, connections, and investigative
capabilities to ascertain whether expungement was actually available, was a death
knell for her case thus far. Whether expungement was possible for Gallogly was an
issue of which any judge in the federal district court absolutely should have at least
a vague awareness, and about which he would have been able to quickly ascertain
with an aim towards societal justice, with his requisite knowledge, powers, and
connections. Gallogly recently defiinitively discovered expungement is not possible.
23

In this light, and combined with the inherent bias a litigant has towards and
against facts and laws, all we non-attorney litigants could be said to have a
particular set of bias and competencies, which will in some situations hinder justice,
and in other situations enhance it.
Importantly, this Court's Turner v. Rogers decision on indigent counsel
appointment for a civil case hinged on whether there was another reasonable
remedy provided bv the state. Here, it is unlikely that complex cases will have
reasonable remedies, due to the voluminous rights violations inherent in
complexity. Reasonable remedies include yet are not limited to: not requiring the
indigent to complain all day every day to the same and different entities about the
same as well as related accruing problems for years without definitively resolved
relief; and, the assurance that matters about which they complained, will not recur.
The idea that any judge could ascertain whether a non-attorney indigent litigant
is able to represent themselves in a complex case is somewhat absurd, in that it
would require a wealth of knowledge not in the judge's possession upon the
preliminary opening of the case, when counsel appointment is typically sought.
Judges are not standardized test administrators, educators, or mental health
professionals, nor do they have such tools at their disposal at the typical timing of
motion for indigent civil counsel appointment. Alternatively, if the judge does
possess knowledge about the indigent beyond simple finances and writing
capabilities, they are required to recuse themselves on the basis of potential bias.

24

The nature of counsel appointment in these matters requires reformation. In
support of civil indigent litigants' Fifth Amendment due process rights, the word
"may" in 28 U.S.C. § 1915(e)(1) should be declared a permissory requirement and
not a permissory discretion for complex cases. Consideration of whether an indigent
non-attorney can represent themselves must be removed from the decisionmaking
process for indigent civil counsel appointment, unless the indigent successfully selfrepresented themselves before in a similar case.
Every litigant is different. Gallogly has significant social interests, a moral
compass, quality vision for a better societal future, above-average writing
capabilities, and decent native and trained analytical skills. As such, Gallogly would
have benefitted immensely from co-counsel appointment, wherein she could submit
pleadings for the case, and serve other functions as may be required. Gallogly would
have benefitted from co-counsel appointment by way of indirect access to facilitative
legal scheduling and decision-tree software, and direct access to the legal acumen of
co-counsel. The creation of a provision requiring co-counsel appointment to an
indigient on request in both civil and appellate procedure would preserve both
justice and judicial efficiency. A litigant serving a role in the judicial process will
likely have stronger motivations for success, which can help hone argument,
whereas their deficiencies due to bias and lack of procedural knwoledge would be
shored up by their co-couselperson's alternative vantage point.
Confrontation is precedential for non-criminal cases. Greene v. McElroy, 360
U.S. 474 (1959). Due to actions from courts below, Gallogly remains deprived from

25

confronting adverse witnesses in a venue in which so doing will not jeopardize her
property rights. This is a crucial element with respect to counsel appointment, given
that all the defendants either have legal representation or are actually lawyers
themselves, and have already directly contributed to Gallogly’s freedom limitations,
with some continuing to regularly threaten Gallogly’s property interests. Gallogly's
potential property loss concerns are therefore quite real, and both reified and
magnified by her period of actual homelessness in 2016. Thus, it was in violation of
Gallogly's Fifth Amendment rights to fail to appoint Galloglv counsel with the goal
of reducing the likelihood of reprisals from property defendants, so as to uphold and
protect her liberty and property rights prior to serving defendants.
B.

Gallogly Had a Right to Liberal Treatment

Pro se complaints are to be liberally construed in favor of the plaintiff. Haines v.
Kerner, 404 U.S. 519, 520-21 (1972); Coleman v. Lincoln Parish Det. Ctr., 858 F.3d
307, 309 (5th Cir. 2017). Federal Rule of Civil Procedure 56 makes way for liberal
treatment for any party that "...fails to properly support an assertion of fact or fails
to properly address another party's assertion..." in the pleadings leading up to
summary judgment. Within these two boundary-demarcating sets of pleadings is a
veritable sea of instances wherein a pro se litigant ought to receive liberal
treatment by way of Haines v. iTemer interpolation.
Gallogly did receive liberal treatment, either during complaint review or
thereafter and often received worse treatment than a represented litigant would
receive. Gallogly is not Ginger Rogers, and is not appealing to courts to receive legal

26

pedagogy by way of intellectual flogging. Gallogly already has three advanced
degrees in another field, and appealed and is appealing to the courts for relief.
Gallogly suspects discrimination based on her sex and education level played a role
in this judicial maltreatment, and urges for this type of treatment to never
negatively affect an indigent or non-attorney litigant again. Therefore, hereafter she
demonstrates the ways in which she was not treated liberally, and the ways
indigent and / or non-attorney litigants ought to be treated in the future, for
widespread betterment of societal justice.
1.

Gallogly Had a Right to Be Heard on Pleadings

The lowest court abused process when it stated in a footnote of a lengthy order
that Gallogly's reported facts were not evidentiary and were therefore questionable.
(App. 30a-31a). By contrast, when dismissing a case upon failure to state a
legitimate claim, it is precedential for courts to "...accept as true all factual
allegations in the complaint and all reasonable inferences that can be drawn
therefrom, and view them in the light most favorable to the plaintiff...," Evancho v.
Fisher, 423 F.3d 347 (2005). Moreover, courts should not dismiss a complaint for
failure to state a claim if it “...contain[s] either direct or inferential allegations
respecting all the material elements necessary to sustain recovery under some
viable legal theory.” Montville v. Woodmont, 244 Fed. Appx. 514, 517 (3d Cir. 2007).
(Emphasis added). Therefore, simple allegations without evidence are sufficient at
the complaint stage. Importantly, courts may also consider public records. Miller v.
Redwood Toxicology, 688 F.3d 928 (2012). The evidence Gallogly "failed to provide"

27

was readily available for the court to view on public record in Travis County
Criminal Court, Case No. Cl-CR-15-211649.
Thus, lowest court abused process when it issued a Report and Recommendation
at the complaint stage stating Gallogly failed to produce evidence in support of the
fact that she wrote her own Motion for Early Termination of her criminal trespass
probation term. It continued to do so when it went on to promulgate a lengthy
report chock full of further faulty legal analysis and citation, and then dismissed
the case based on that report to Gallogly’s detriment without articulated answer to
her de novo objections. These due process violations interfered with Gallogly's
ability to be appropriately heard in her complaint, her objections, and for further
evidence by way denying her access to the process of discovery.
2.

Gallogly Deserved to Have Notice Provided to Defendants

Federal district courts are obliged to serve defendants when an indigent litigant
files a pro se case pursuant to Federal Rule of Appellate Procedure 3(d):
The district clerk must serve notice of the filing of a notice of appeal by mailing
a copy to each party’s counsel of record...[and]...[t]he clerk must note on the
docket the names of the parties to whom the clerk mails copies, with the date of
mailing.
The docket indicates no service of Gallogly's initial Notice of Appeal to The Fifth
Circuit by the lowest court to parties, in violation of Gallogly's Fifth Amendment
right to due process. Here, it appears Gallogly was actually treated *less* liberally
than a represented litigant. Gallogly believes the Fifth Circuit may have affirmed
the lowest court's dismissal on the basis that parties were not served, but cannot
know this unequivocally because she was provided no articulated opinion for
28

affirmance. Gallogly was and is fearful of serving property parties due to fear of
reprisals. If the lower courts had served the pleadings, Gallogly would at least feel
she had the official backing of the court as a minimal measure to dissuade said
parties from further violating her rights.
Because of due process failures, Gallogly has not been evidentiarily heard. Even
though both courts stated they heard Gallogly, they failed to demonstrate having
heard Gallogly in many of her pivotal pleadings. This equates not being heard.
Affirming the lower court’s decision without opinion by the Fifth Circuit leaves
Gallogly with the belief that the panel did not read her opening brief, given she was
provided no evidence by the court therefor. This is both a due process and national
security concern. How does Gallogly know the electronic affirmation is from the
court or judges from which it claims to be, if no rational reason is offered for adverse
dispositive determination? That Forbes published an article stating The City of New
Orleans - where the Fifth Circuit resides - gained knowledge of its own digital
ransom beginning December 13, 2019, only two days after said affirmation issued,
heavily magnifies national security concerns.
Because Gallogly received no opinion on the document of record, she remains
unheard on the following pleadings to date: (i) objections to the district court; (2)
opening brief argument that international law is both federally and individually
actionable, Kathryn Burke, et al., Application of International Human Rights Law
in State and Federal Courts, 18 Tex. Int'l L. J. 291 (1983); (3) opening brief
argument that § 1983 does not require state officials to be actionable in opposition

29

to the lowest court's assertion (App. 37a), because it uses the language "every
person"! (4) opening brief argument that the district court’s interpretation of equal
protection, in its presented form, was absurdly illegal, possessing Holocaustian
allusions (App. 21a); and (5) counsel appointment arguments responding to Deputy
Clerk Schnieder’s denial. Other fundamental, constitutional arguments remain
unanswered for pleadings.
3.

Gallogly Had a Right to Present Evidence Supporting Her Case

Gallogly’s case was dismissed outright twice without valid answer. Therefore,
Gallogly remains deprived from providing evidence in support of her claims. Actions
from courts below barred Gallogly from the process of discovery. Evidence provision
is crucial to support her due process right to be heard in a legally viable manner.
Importantly, failure to afford non-attorney litigants eletronic filing privileges in
today's day and age can too interfere with their right to present evidence, conferring
both lack of liberal treatment, and lack of equal protection. The requirement for
indigents and / or non-attorneys to file only hard copy documents was historically
for the benefit of the filer. However, it is not always easier for such litigants to
make paper filings. If a filer is computer literate, electronic filing possesses more
pragmatic ease and fewer costs, particularly in urban settings with public libraries
hosting internet access. Poor people are more likely to lack personal transportation,
making it difficult to first obtain copies and then go to a second postal location for
mailing. These pragmatic concerns also constrain the time non-attorney litigants
have to craft pleadings, further magnifying their disadvantage.

30

Public library internet access is free. Paper copies and postal mailings are not.
Gallogly was denied efiling privileges and then chastised by the lowest court in a
small-print footnote of a lengthy report for not providing voluminous papers
showing she litigated her own early commutation (App. 30a), when her annual gross
income was $3.598.00. Lack of efling privileges also prevented Gallogly from
submitting an amended complaint to the lowest court for this reason.
Problems with crafting subsequent pleadings can ensue wherein a non-attorney
litigant is provided paper copies of orders not searchable or copy-and-pasteable on a
computer, because it is an imaged PDF. If courts wish to continue to afford indigent
and non-attorney litigants reasonable and equal access to the courts, electronic
filing must be mandatorily included as an option for them in all courts.
Court answers must be based on facts and evidence. Gallogly’s lack of
opportunity to provide evidence through the process of discovery, which courts
needed to ascertain veridicality, prevented courts from issuing valid opinions.
4.

Gallogly Had a Right to Reasons for Record Decisions

The current standard for court opinions is that they mustn’t be thorough or
complete, however, “...the decisionmaker should state the reasons for his
determination and indicate the evidence he relied on.” Goldberg v. Kelly, 397 U.S.
254 (1970). As a quick aside, why should they not be thorough or complete? Still, the
local rules of the Fifth Circuit violate this most basic precedential standard:
5TH CIR. R. 47.6 Affirmance Without Opinion. The judgment or order may be
affirmed or enforced without opinion when the court determines that an opinion
would have no precedential value and that any one or more of the following
circumstances exists and is dispositive of a matter submitted for decision: (l)
31

that a judgment of the district court is based on findings of fact that are not
clearly erroneous; (2) that the evidence in support of a jury verdict is not
insufficient; (3) that the order of an administrative agency is supported by
substantial evidence on the record as a whole; (4) in the case of a summary
judgment, that no genuine issue of material fact has been properly raised by the
appellant; and (5) no reversible error of law appears. In such case, the court
may, in its discretion, enter either of the following orders: "AFFIRMED. See
5TH CIR. R. 47.6." or "ENFORCED. See 5TH CIR. R. 47.6."
Human error is possible in every realm. Gallogly has a Ph.D. in psychology,
postdoctoral training in neuroscience, and as such is an expert witness to this fact,
regardless of a person’s pedigree. This local rule paralyzes htigants from pursuing
further argument in the event of judicial mistake, national security breach, a tired
judge panel that refrained from reading key or any documents, or judicial
incompetence. In following 5TH CIR. R. 47.6, panel judges deprived Gallogly of due
process. Both “what” and “why" are substantively necessary. Yet, Gallogly received
no clarification. The terms under which 5TH CIR. R. 47.6 permits judges to refrain
from opining are constitution-violatingly broad.
Circuit judges’ and judge panel’s severe and pervasive willingness to violate
substantive due process by way of permitting the existence of, and also following
5TH CIR. R. 47.6 to order or affirm without opinion calls into question their
impartiality. Judicial bias involves how personal bias observed in previous
determinations may impact future behavior, such as “...a significant, personal
involvement...in a critical decision regarding the defendant’s case.” Williams v.
Pennsylvania, 579 U.S.

(2016). Gallogly contends two prongs of significant.

personal involvement. The first prong involves court personnel's blinders to
unconstitutional court procedure due to historical court enforcement imbued in a
32

staunch hierarchical power structure, combined with the various personal
investments that come with social cohesion, self-esteem, and job security. The
second pertinent significant, personal involvement here is sex discrimination with a
systemically paternalistic view that it is the right of courts below to engage in
abusive pedagogy with Gallogly - or worse, stonewalling - combined with feelings of
competition-related threat with an articulate female "outsider" to their field. The
mistake made here by courts below is that justice is not their field alone. Justice is
a right for our entire nation's constituents to relish. Therefore, Gallogly avers
appellate procedure must be crafted in a way to eliminate such sources of local,
unconstitutional bias that is “too high to be constitutionally tolerable.” Caperton v.
A. T. Massey Coal Co., 556 U.S. 868.
Furthermore, the lowest court failed to opine and therefore remained silent on
Gallogly's objections, as did the Fifth Circuit on her May 30, 2019 motion for
reconsideration. Both of these pleadings were pivotal for Gallogly's Fifth
Amendment due process affordance. When Gallogly proffered a new argument in a
new pleading answering a court's adverse determination, Gallogly had the right to
an answer of some substance, and not just prior articulation, to be put on record for
the order or judgment responding to the new arguments in the new pleading.
Part of articulating opinion involves both accurate interpretation and accurate
articulation for all orders. Courts below stated there is no "automatic", Caston v.
Sears, Roebuck & Co., 556 F.2d 1305, 1310 (5th Cir. 1977), or "general", Cupit v.
Jones, 835 F.2d 82, 86 (5th Cir. 1987), right to counsel. The lowest court denied

33

counsel appointment to Gallogly based on its specious argument that Gallogly made
no viable claims. Here, reading the entire report (App. 27a-56a) and objections
(ROA.274-303) will clarify said speciousness in its pervasive form. The circuit
asserted Gallogly's case was not particularly complex, without any criteria provided
for what makes for a complex case; any articulation showing the complaint was
reviewed; or any objective facts about how Gallogly's case failed to meet (un)said
complexity criteria. It is an affront to justice for any court to suggest a complaint
possessing 140 pp. in length, claims and facts of which a lower court grossly
misconstrued, is not complex. Liberal treatment is intended to maximize due
process affordance in the interest of justice for indigent and non-attorney litigants.
In summary, articulation to the detriment of the non-attorney litigant that is
unsupported, circular, vacuous, and / or in error is an unconstitutional lack of
liberal treatment resulting in due process deprivations.
Just one example of intersectional failures in which there was pervasive abuse of
this nature, involved plain error on behalf of the lowest court that the Fifth Circuit
erroneously failed to notice and articulate pursuant to 5TH CIR. R. 47.6.
Specifically, the lowest court asserted The United Nations' Declaration of Human
Rights (UNDHR) does not provide a basis for viable claims (App. 37a-39a). This is
despite the fact that the complaint was filed under 28 U.S.G. § 1331, in which "[t}he
district courts shall have original jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States" and 42 U.S. Code § 1983, under
which:

34

"Telvery person who, under color of any statute, ordinance, regulation, custom,
or usage, of any State or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States or other person within
the jurisdiction thereof to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other proper proceeding for
redress."
Clearly, UNDHR is absolutely a customary regulatory framework for the United
States given its membership in the United Nations. The rights established under
UNDHR can be construed wherein not expressed in the Constitution, to be
unenumerated by way of the Ninth Amendment, coming into compliance with
Montville v. Woodmonts ' "inferential allegations" minimum standard for liberal
treatment in accepting non-attorney claims at the complaint stage.
Moreover, Gallogly directly stated several constitutional violations. A complaint
cannot be thrown out if there is a claim that is not viable, only if there are no viable
claims. Yet, the Fifth Circuit failed to articulate the lowest court's clear and
pervasive error. Gallogly avers in considering this prong of the petition, that
declaratory relief is needed from the Court to assert litigants' right to call upon
UNDHR and to not have the complaint dismissed on the basis that a viable claim
for relief was not stated, simply because a UNDHR tenet is expressly claimed.
Articulated opinions provide

ongoing checks

and balances for judicial

competence, about which there are a plethora of federal regulations, showing it to
be a concern of historical relevance.
Articulated opinions cure national security concerns. These days, just about
anybody has the ability to copy a legal document and modify it to appear as though
it was transmitted by a court, and hackers abound. However, not just anybody can
35

create an articulate and well-reasoned opinion for order or judgment. Therefore,
articulated opinions provide a heightened level and sense of security for judicial
process.
Articulated opinions provide any litigant the ability to contest an order, in the
event it is incorrect and subject to adjustment. However, if the reason for an order is
not articulated, the litigant has no rational basis for repose or response. Therefore,
articulated opinions for orders are fundamental to due process in the courts. Yet,
the Fifth Circuit brandishes rule 5TH CIR. R. 47.6 in affirmance of decisions of
courts below without opinion. If this Highest Court is to keep its litigation to a
reasonable level and thereby available to all the constituents of this nation in actual
need of it. then all the courts below need to function at maximum efficiency in the
interest of justice. That maximum efficiency must include logically sound.
reasonable, and rational articulated opinions devoid of unfounded allusions to
litigants' "delusions". (App. 35a).
5.

Gallogly Had a Right to Other Liberal Substantive Due Process

In addition to articulated opinions, Gallogly had a right to clear rather than
implied statements and / or guidance for court procedure. Retrospectively, Gallogly
can see that perhaps the lowest court was indirectly alluding to the fact that
Gallogly could seek further process in the lower court with leave of court from the
circuit level (App. 61a-62a). However, there was no clear statement thereof at all.
The combination of (l) lack of express communication thereof, (2) the lengthy
nature of appellate procedure, (3) the restrictive and punishing nature of the

36

communication, (4) Gallogly's non-attorney status, (5) Gallogly's work on another
complex case in the United States Court of Federal Claims, and (6) both lower
courts' failure to appoint Gallogly counsel for this case, manifested as a significant
violation of substantive due process. Further, the necessity for leave of court in this
instance just served as another logistical hurdle in a quagmire thereof, further
violating Gallogly's substantive due process. It would behoove the court to
reconsider the custom of leave of court requirements under some circumstances.
For another example of failures in clear communication, a Fifth Circuit clerk
raised the issue with Gallogly during a phone conversation that Gallogly's case had
not yet been served. The Fifth Circuit clerk did not ask why the case had not yet
been served, or make any recommendations for how to cure the lowest court's
failure to serve the case, thereby violating Gallogly's substantive due process rights
by way of failure to communicate clear procedural remedy.
Gallogly was provided ample opportunity to correct constructed procedural
defects to the point of causing her significant mental and emotional anguish. The
"deficiencies" that required correction involved meaningless deficiencies, such as the
requirement conveyed post hoc from the Fifth Circuit that Gallogly include a typed
rather than handwritten signature on her appellant brief. By contrast, the lowest
court provided no opportunities to cure substantive defects. For example, the
provision by the lowest court of a 25 pp. report and recommendation to a non­
attorney litigant, with myriad legal citations was abuse of process alone. For the
judge to then speciously raise the fact that Gallogly did not provide evidence for her

37

own commutation with her initial complaint as a failure of hers in a small-print
footnote, is abuse of process in opposition with Evancho v. Fisher. Still, if the lowest
court really wanted a particular type of evidence to be provided by Gallogly to avert
dismissal, the reasonable and ethical course of action would be to specifically ask for
the evidence from Gallogly directly, and give Gallogly time to provide it.
Whereas some manifestations of this due process failure — the failure to state
specific deficiencies absent a firehose of legalese and then give Gallogly the
opportunity to cure them — are conveyed in the previous paragraphs of this
subsection, they abound throughout lower court process. For example, the lowest
court provided no credible answers for how Gallogly's claims were deficient, or how
they could be constructed in a manner so as to be made viable. Whereas the Fifth
Circuit found Gallogly's appellant brief and petition for panel rehearing
procedurally sufficient, judges clarified nothing about how Gallogly's briefs wanted
for substance, or how she could correct brief substance to come into compliance with
whatever unarticulated standard was presented. Clearly, federal court procedure
requires explicit rules for providing opportunities to cure substantive defects.
In affordance of Fifth Amendment due process by way of liberal treatment, non­
attorney litigants have a right to lack of trickery from courts. Gallogly was
confronted with potential trickery from the Fifth Circuit, wherein the order and
affirmance for rehearing denial were issued on different dates. This simple act
interjected high probability of due process failure for Gallogly, and would for any
non-attorney litigant, due to appellate procedure. Specifically, if a petition for panel

38

rehearing is filed, then the due date for a petition for writ of certiorari is counted
from the order date, not from the judgment date. Providing the order and
judgement for dismissal of the same case on different dates was problematic. That
is, if Gallogly had made the reasonable assumption that her certiorari petition was
due counting from the (later) judgment date, she would have missed her
opportunity to timely file a certiorari petition. Here, both non-attorney litigants and
this country's constituents deserve to have process preserved in the lower courts.
Yet, when that process is made unavailable, they deserve to not be deceived into a
substantive due process failure due to a procedural trick. Either the certiorari
deadline should be counted from the latest dispositive promulgation date, or the
dispositive order and judgment should be required to issue on the same day.
In line with this lack of trickery tenet, so too must facial constitutional and
statutory language supersede precedent in court opinions, pursuant to reformed
federal court procedure codes.
In summary, Fifth Amendment due process is a cornerstone of our judicial
system, yet Gallogly was summarily failed in this regard for virtually every
manifestation thereof. Gallogly avers court procedure must be reformed to correct
for such deficiencies for litigants in general, and even more so for non-attorney
litigants. The addition of overt statements regarding liberal treatment of non­
attorney litigants must be added to both civil and appellate court procedure,
including all pertinent points raised above in this petition.

39

In pursuit of this goal is this remaining list of added points not yet raised for
relief. A pro se clerk should be required for all courts, with a direct phone line and
email address. An overt statement is necessary stating the intent of Federal Rule of
Appellate Procedure 2 is to preserve due process. The Notice of Appeal deadline
must be changed to reflect postmark rather than receipt, like virtually all other
papers. Deadlines for all papers, including responses to non-dispositive orders, must
be indicated in PACER. Deadlines for all court papers must have a minimum month
requirement for all litigators, to accommodate cycling women. All litigants should
be unburdened from providing record excerpts, and permitted to simply cite the
record on appeal. Only one hard paper copy should be required for any pleading,
and only in the event of security concerns, while preserving indigents' right to also
file hard copies. Docket citations should change from Docket numbers to PACER
document numbers in all courts. This list of additional points is not exhaustive.

Conclusion
In conclusion, this petition for writ of certiorari should be granted, along with
any other relief which the court deems proper.
SIGNED July 15, 2020
Respectfully submitted:
/s/ Rebecca H. Galloglv ^---Signature of Plaintiff-Appellant
Dr. Rebecca H. Gallogly
2301 Durwood Street, Suite 3408
b 3ccahunt@gmail .com
Austin, TX 78704
(512) 663-4396
40

